           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        ADMINISTRATIVE COSTS
           CLAIMED BY THE
         GEORGIA DISABILITY
        ADJUDICATION SERVICES

     August 2008   A-04-08-18013




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      August 20, 2008                                                               Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Administrative Costs Claimed by the Georgia Disability Adjudication Services
           (A-04-08-18013)


           OBJECTIVE
           Our objectives were to
           •     evaluate the Georgia Disability Adjudication Services’ (GA-DAS’) internal controls
                 over the accounting and reporting of administrative costs,

           •     determine whether costs GA-DAS claimed for Fiscal Years (FY) 2005 and 2006
                 were allowable and funds were properly drawn, and

           •     assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determinations under the Social Security Administration’s (SSA) Disability
           Insurance and Supplemental Security Income programs are performed by disability
           determination services (DDS) in each State or other responsible jurisdiction, according
           to Federal regulations. 1 Each DDS is responsible for determining claimants’ disabilities
           and ensuring adequate evidence is available to support its determinations. To make
           proper disability determinations, each State is authorized to purchase consultative
           examinations and medical evidence of record from the claimants’ physicians or other
           treating sources. SSA pays the State agency 100 percent of allowable expenditures
           using a State Agency Report of Obligation for SSA Disability Programs, Form
           SSA-4513. The DDS withdraws Federal funds through the Department of the
           Treasury’s (Treasury) Automated Standard Application for Payments (ASAP) system to
           pay for program expenditures.



           1
               20 Code of Federal Regulations §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Paul D. Barnes


GA-DAS is a division of the Georgia Department of Labor’s (GA-DoL) Rehabilitation
Services. It is located in Stone Mountain, Georgia, and has three branch offices in
Thomasville, Athens, and Savannah, Georgia. GA-DoL maintains GA-DAS’ official
accounting records and prepares its Forms SSA-4513. For additional background,
scope and methodology, see Appendix B.

RESULTS OF REVIEW
GA-DAS’ internal controls over the accounting and reporting of administrative costs for
FY 2006 were generally adequate to ensure costs claimed were allowable and funds
were properly drawn. However, for FY 2005, GA-DAS and its parent agency (GA-DoL)
could not provide data by category to support most costs claimed on the Form
SSA-4513. As such, we did not rely on the data to perform all of our audit tests for that
year.

GA-DoL explained that a system error occurred in its accounting software during the
first quarter of FY 2005 that resulted in the inadvertent allocation of indirect costs across
direct cost transactions (for example, a portion of indirect costs was inadvertently added
to transportation expenses). GA-DoL was unable to correct the error, which impacted
how it reported costs on the Form SSA-4513 for the entire year. To adjust for the error,
GA-DoL estimated the amounts claimed in each of the Form SSA-4513 cost categories
except for the expenditures in the Medical Costs category, which were not affected by
the error.

In total, costs claimed on the FY 2005 Form SSA-4513 reconciled with data in the
GA-DoL accounting system. However, because GA-DoL had to estimate the amounts
claimed in the separate Form SSA-4513 cost categories, its accounting system data did
not reconcile to the Form SSA-4513 cost categories (except for the Medical Costs
category). As such, we did not rely on the FY 2005 data other than Medical Costs and
consequently deemed the scope of our audit to be limited. Specifically, for FY 2005, our
audit was limited to tests of medical expenditures, cash management procedures and
general security controls. Accordingly, we reported only on the controls and costs
tested in FY 2005.

We did perform tests of reasonableness on the total costs claimed by the GA-DAS in
FY 2005. That is, we compared the total costs with those claimed in previous periods
and FY 2006. We concluded the total amount GA-DAS claimed in FY 2005 appeared
reasonable. However, except for the Medical Costs—which we determined to be
allowable—we could not report on whether all of the costs claimed on the Form
SSA-4513 were allowable.

Regarding cash management, in FY 2006, GA-DAS withdrew $10,277 more from its
Treasury ASAP account than it reported in actual expenditures. Additionally, GA-DAS
did not adjust unliquidated obligations totaling $29,914 in FYs 2005 and 2006. We also
determined that physical security controls could be improved at the three GA-DAS
branch offices—Thomasville, Athens and Savannah.
Page 3 – Paul D. Barnes


For additional information related to our FY 2005 scope limitation, see Appendix B.

CASH MANAGEMENT

Cash Draws Exceeded Reported Expenditures

In FY 2006, GA-DAS withdrew $10,227 more from its Treasury ASAP account than it
reported in actual expenditures on its Form SSA-4513 (see Table 1).

           Table 1: Cash Draws Exceeded Reported FY 2006 Expenditures
                   ASAP           Expenditures       ASAP Draws
                   Cash               Per               Exceed
                   Draws         Form SSA-4513       Expenditures
                 $48,008,557                $47,998,330                  $10,227

Each year, SSA authorizes a budget to reimburse GA-DAS for its allowable
expenditures. The total budgeted funds are not immediately available to GA-DAS.
Rather, during the FY, SSA intermittently creates an “obligational authorization” that
releases a portion of the budgeted funds to the Treasury ASAP account for GA-DAS’
use. GA-DAS has a separate ASAP account for each FY. In FY 2006, GA-DAS
periodically withdrew funds from the ASAP account up to the SSA-authorized funding
level. As of December 31, 2007, 2 GA-DAS had drawn $10,227 more in ASAP funds
than it claimed as expenditures on its Form SSA-4513. 3 Proper cash management and
accounting practices dictate that cash draws match reported expenditures.




2
  As of December 31, 2007, the FY 2005 and 2006 fund accounts for GA-DAS remained open. According
to SSA’s Program Operations Manual System (POMS), DI 39506.203, the funding for a FY is considered
open until all obligations have been liquidated. However, the fund account must be closed 5 years from
end of the FY in which the funds were obligated. Accordingly, GA-DAS has 5 years to report obligations
and expenditures on the Form SSA-4513. GA-DAS must submit a separate report (Form SSA-4513) for
each quarter in which unliquidated obligations remain.
3
 In September 2007, SSA issued Disability Determination Services Administrators Letter No. 742, which
detailed SSA’s revised procedures to monitor ASAP draws. These changes should improve SSA’s
oversight of ASAP draws.
Page 4 – Paul D. Barnes


Unliquidated Obligations

GA-DAS did not adjust unliquidated obligations, totaling $29,914, for its FYs 2005 and
2006 authorizations (see Table 2). SSA policy requires that States review the status of
unliquidated obligations at least once a month and cancel those that are no
longer needed. 4

                   Table 2: Unliquidated Obligations FYs 2005 and 2006
                    Form SSA-4513
                                        FY 2005     FY 2006     Total
                     Cost Category
                  Personnel                   $0          $0          $0
                  Medical                  10,263     16,245     26,508
                  Indirect                       0         0           0
                  All Other                      0     3,406      3,406
                                Totals    $10,263 $19,651       $29,914

As of December 31, 2007, the FY 2006 Form SSA-4513, shows total expenditures and
obligations that exceed SSA’s authorized funding by $9,424 (see Table 3).

        Table 3: FY 2006—Expenditures and Obligations Exceed Funding
                                                               Expenditures
   SSA        Form SSA-4513 Form SSA-4513           Total
                                                               & Obligations
Authorized     Expenditures    Unliquidated    Expenditures
                                                                that Exceed
 Funding                       Obligations     & Obligations
                                                                  Funding
$48,008,557     $47,998,330       $19,651       $48,017,981        $9,424

A GA-DAS official stated GA-DAS will need to investigate both the FYs 2005 and
2006 unliquidated obligations to determine whether the funds are still needed. If
GA-DAS determines the FY 2006 funds are necessary, it will need to request additional
funding from SSA to cover its expenditures. Conversely, if GA-DAS determines the
funds are not necessary, it will need to return $10,227 in ASAP draws that exceed the
expenditures reported on the Form SSA-4513 (as of December 31, 2007). The refund
would be required because, as previously discussed, GA-DAS has already drawn its
entire authorized funding.

GENERAL SECURITY CONTROLS

SSA’s policy requires that DDSs adequately safeguard claimant/program information.
Further, the Agency provides guidelines for protecting the DDS facilities and their
personnel. 5 Although the physical security controls were adequate at the GA-DAS
headquarters facility in Stone Mountain, Georgia, the physical security controls could be
improved at all three branch offices.

4
    POMS, DI 39506.203.A.
5
    POMS, DI 39566.010.A and B.
Page 5 – Paul D. Barnes


Thomasville Branch Office—Perimeter Security Enhancements Needed

Physical security controls at the Thomasville branch did not adequately prevent
unauthorized access to the building. The Thomasville facility is located in a privately
owned, single-story building and is occupied solely by GA-DAS. There are windows
along three sides of the building, and three doors provide access to the building.

The building was not protected with on-site security guard service. Additionally, neither
an intrusion detection system (IDS) nor a surveillance system had been installed. 6 The
perimeter doors were not solid wood core, metal sheathed, or protected with a 1-inch
deadbolt or its equivalent. One of the emergency exit doors had restricted visibility and
did not have a peephole. Also, GA-DAS management reported on SSA’s Annual
Security Self Review Checklist and Risk Assessment that the office windows were not
well constructed and did not have adequate locks. 7

Overall, the physical security controls did not adequately protect or limit access to the
Thomasville office. GA-DAS and SSA regional officials stated they were aware of the
limited physical security controls and that a relocation plan had been initiated by
GA-DAS, but a site and date for the relocation had not been determined. A
representative from the Atlanta Region Center for Disability explained that restricted
budgets and the uncertainty as to how much longer GA-DAS will remain at the current
site, had delayed SSA from funding major building improvements needed to enhance
the physical security controls. However, given that there is no definite schedule in
GA-DAS’ plan to relocate the Thomasville office, SSA should consider funding
cost-effective improvements that would enhance physical security.

Athens Branch Office

The Athens office had neither an IDS nor a surveillance system. According to SSA
policy, an IDS is required in all facilities unless determined unnecessary. 8 A GA-DAS
risk assessment of the Athens branch office concluded that security could be improved
with the installation of an IDS, pending funds availability.

The Athens office is located on the second floor of a privately owned, multi-tenant,
two-story building. The public enters the office via the reception area, which is adjacent
to the reception office. The two rooms are separated by a wall, and the only access to
the GA-DAS is through a locked door. There are panic alarms in the reception area and
the receptionist’s office. With the exception of the main entrance door, all other external
doors are locked. GA-DAS staff enter the office through a separate door that is
protected with a pass code keypad lock.


6
    POMS, DI 39566.010.B.2.g. An IDS is required in all facilities unless determined unnecessary.
7
 POMS, DI 39566.010. B.1.a. through f. provides suggested perimeter office security features for doors
and windows. These security features were not present at the Thomasville branch office.
8
    POMS, DI 39566.010.B.2.g.
Page 6 – Paul D. Barnes


The second floor location and the existing perimeter security controls limit access to the
GA-DAS. Nevertheless, in accordance with SSA policy, an IDS should be in place to
improve 24-hour office security.

Savannah Branch Office

The Savannah office does not have on-site security guard services or an IDS.
According to SSA policy, an IDS is required in all facilities unless determined
unnecessary. 9 A GA-DAS risk assessment of the Savannah branch office concluded
that security could be improved with the installation of an IDS, pending funds
availability. 10

The Savannah office is located in a privately owned, two-story, multi-tenant building.
Windows are present on both floors of the building. GA-DAS occupies portions of both
floors, with most of the staff located on the second floor. Public access to GA-DAS is
limited to the first floor from the lobby area. There is a security partition between the
lobby and reception area, and access to the reception area is restricted through a door
secured with a pass code keypad lock.

Although perimeter security controls generally limit access to GA-DAS, in accordance
with SSA policy, an IDS should be in place to improve 24-hour office security and add
an additional safeguard for claimants’ personally identifiable information.

CONCLUSION AND RECOMMENDATIONS
GA-DAS’ internal controls over the accounting and reporting of administrative costs for
FY 2006 were generally effective to ensure costs claimed were allowable and funds
were properly drawn. However, because of an accounting system error, GA-DoL could
not provide data by cost category to support most costs claimed on the FY 2005
Form SSA-4513. As such, we could not rely on the data to perform all of our audit tests
for that year, which limited the scope of our audit. We did perform tests to determine
the reasonableness on the total costs claimed for FY 2005, which appeared reasonable
when compared to other years. Moreover, the accounting system error was corrected,
and the FY 2006 data were reliable. However, even though the FY 2005 appeared
reasonable, because of the scope limitation, we could not determine whether all costs
claimed for FY 2005 were allowable. We encourage SSA and GA-DoL to closely
monitor system controls to prevent a recurrence. Additionally, we will review these
controls in future audits of GA-DAS’ administrative costs.

Regarding cash management, FY 2006 ASAP cash draws exceeded the total
disbursements and obligations reported on GA-DAS’ Forms SSA-4513 by $10,227.
Also, GA-DAS did not adjust unliquidated obligations of $10,263 and $19,651 for its

9
    Id.
10
  We did not visit the GA-DAS Savannah office. We relied on the results of a self assessment that were
included as part of the Annual Security Plan.
Page 7 – Paul D. Barnes


FYs 2005 and 2006 authorizations, respectively. Lastly, the physical security controls at
the three branch offices could be improved.

Accordingly, we recommend that SSA:

1. Instruct GA-DAS to review unliquidated obligations totaling $29,914 in FYs 2005 and
   2006, and cancel those that are no longer needed. If GA-DAS determines the
   FY 2006 unliquidated obligations are not needed, GA-DAS will need to return
   $10,227 due to the excess ASAP cash draws.
2. Assess the physical security controls at the Thomasville branch office and determine
   what cost-effective improvements should be made to enhance physical security.
3. Install an IDS in the Athens and Savannah branch offices.

AGENCY COMMENTS
In commenting on our draft report, SSA and GA-DoL generally agreed with our
recommendations. See Appendices D and E, respectively, for the full text of SSA’s and
GA-DoL’s comments.

OTHER MATTERS
In September 2005, we issued a report on Disability Determination Services’ Use of
Social Security Numbers on Third-Party Correspondence. In this report, we
recommended that SSA:

      Clarify existing policy to define what third parties may be provided a
      claimant’s SSN [Social Security number] as a part of the DDS’s
      disability determination process. To ensure SSN integrity, we believe
      the SSN should only be disclosed when it is critical to a third party’s
      ability to adequately respond to the DDS’s information request.

SSA agreed with this recommendation and stated:

      A claimant’s SSN should only be disclosed when it is critical to a third
      party’s ability to adequately respond to a DDS’s information request.
      We will review and, to the extent necessary, clarify our existing policy to
      more clearly define which third parties should be provided a claimant’s
      full or partial SSN as part of the DDS evidence collection process.
Page 8 – Paul D. Barnes


We asked GA-DAS if it disclosed claimants’ SSN’s on documents sent to third parties.
GA-DAS confirmed that it includes claimants’ SSN’s on requests for medical evidence
of record and consultative examinations requests, and has been doing so for many
years. We believe GA-DAS should take steps to exclude the SSN from documents it
sends to third parties.




                                              Patrick P. O’Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope and Methodology
APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Report of Obligation for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – Georgia Department of Labor Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
Act             Social Security Act
ASAP            Automated Standard Application for Payments
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligation for SSA Disability Programs
FY              Fiscal Year
GA-DAS          Georgia Disability Adjudication Services
GA-DoL          Georgia Department of Labor
IDS             Intrusion Detection System
OMB             Office of Management and Budget
POMS            Program Operations Manual System
SSN             Social Security Number
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
                                                                                   Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico and the District of Columbia in
accordance with Federal regulations. 1 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, each DDS is authorized to purchase medical examinations, x-rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB)
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the
end of each quarter of the Fiscal Year (FY), each DDS submits a State Agency Report
of Obligation for SSA Disability Programs, Form SSA-4513, to account for program
disbursements and unliquidated obligations.




1
    20 Code of Federal Regulations (C.F.R.) §§ 404.1601 et. seq. and 416.1001 et seq.
2
    31 C.F.R. Part 205.
3
    Public Law Number: 101-453.


                                                    B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Georgia Disability
Adjudication Services (GA-DAS) reported on its Forms SSA-4513 for FYs 2005 and
2006. However, our audit tests were limited in FY 2005.

Scope Limitation

For FY 2005, we could not rely on the electronic data submitted by Georgia Department
of Labor (GA-DoL) to support the administrative costs claimed on the Form SSA-4513.
Specifically, the FY 2005 electronic data did not reconcile by cost category with the
costs claimed on the Form SSA-4513, except for the medical expenditure transactions
in the Medical Costs category. The GA-DoL explained that an electronic accounting
system error occurred in the first quarter of FY 2005. The error occurred when an
accounting systems application was executed to compute the first quarter indirect costs.
The system application inadvertently allocated indirect costs throughout the individual
direct cost transactions. GA-DoL was unable to correct the error, and the error
impacted the costs reported on the Form SSA-4513 for the entire FY.

A GA-DoL official explained the total costs reported on the Form SSA-4513 were
accurate. However because of the system error, GA-DoL had to estimate the costs
claimed in each cost category identified on the Form SSA-4513, except for the
expenditures in Medical Costs. The Medical Costs claimed on the Form SSA-4513
were accurate because the system application that caused the problem was not
executed on the medical expenditure transactions.

Because of the accounting system error, we could not rely on the FY 2005 data, except
for the data supporting the Medical Costs. Consequently, we determined the scope of
our audit to be limited. For FY 2005, we limited our audit tests to the Medical Costs
transactions, cash management procedures and select general security controls.
Accordingly, we reported only on the controls and costs tested in FY 2005.

For the periods reviewed, we obtained evidence to evaluate recorded financial
transactions and determine whether they were allowable under OMB Circular A-87, as
appropriate, as defined by SSA’s Program Operations Manual System (POMS).

We also:
•   Reviewed applicable Federal laws, regulations and pertinent parts of POMS,
    DI 39500, DDS Fiscal and Administrative Management, and other instructions
    pertaining to administrative costs incurred by GA-DAS and draw down of SSA funds.
•   Interviewed staff at GA-DAS and the SSA regional office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.




                                           B-2
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by GA-DAS on Forms SSA-4513 for FYs 2005 and 2006.
•   Examined the administrative expenditures (Personnel, Medical, and All Other
    Non-personnel Costs) incurred and claimed by GA-DAS for FY 2006. For FY 2005
    our tests were limited to Medical Costs.
•   Examined the indirect costs claimed by GA-DAS for FY 2006 and the corresponding
    Indirect Cost Allocation Plan.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513. Tests were performed on
    both FYs 2005 and 2006 Forms SSA-4513.
•   Determined the reasonableness of the costs claimed on the FY 2005 Form
    SSA-4513 by comparing the cost for that year with the costs claimed for other FYs
    Forms SSA-4513.
•   Reviewed the State of Georgia’s Single Audit reports issued in 2005 and 2006.
•   Conducted limited general controls testing—which encompassed reviewing the
    physical access security in the GA-DAS. Specifically, we visited and performed
    tests of the general security controls at the Stone Mountain, Thomasville, and
    Athens, Georgia, offices. For the Savannah office, we reviewed the GA-DAS Annual
    Security Plan and interviewed SSA regional office and GA-DAS staff.

The FY 2006 electronic data used in our audit were sufficiently reliable to achieve our
audit objectives. Additionally, we determined GA-DAS’ FY 2005 electronic data
detailing the medical expenditure transactions in the Medical Costs category were
reliable to achieve our objectives. We assessed the reliability of the electronic data by
reconciling them with the costs claimed on the Forms SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed our audit at GA-DoL in Atlanta, Georgia; GA-DAS in Stone Mountain,
Thomasville, and Athens, Georgia; and the Office of Audit in Atlanta, Georgia, from
May 2007 through February 2008. We conducted this financial audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.

METHODOLOGY

Our sampling methodology encompassed the three areas of direct costs reported on
Forms SSA-4513: (1) Personnel, (2) Medical, and (3) All Other Non-personnel Costs.
We obtained computerized data from GA-DoL for FYs 2005 and 2006 for use in
statistical sampling.




                                             B-3
Personnel Costs

We reviewed a random sample of 50 personnel transactions from 1 randomly selected
pay period in FY 2006. Because the electronic data file is on a monthly pay basis and
the pay period information is presented on a semi-monthly basis, we also reviewed the
pay period following the one selected. In addition, we reviewed all 50 medical
consultants’ transactions from 1 randomly selected pay period in FY 2006. We tested
payroll records to ensure GA-DoL correctly paid these employees and adequately
supported the payments.

Medical Costs

We reviewed 100 Medical Costs items from FYs 2005 and 2006 (50 items from each
FY) using a stratified random sample. We distributed the sample items between
medical evidence of record and consultative examinations based on the proportional
distribution of the total medical costs for each year. We determined whether sampled
costs were properly reimbursed.

All Other Non-Personnel Costs

We stratified All Other Non-personnel Costs for FY 2006 into 10 categories:
(1) Occupancy, (2) Contracted Costs, (3) Electronic Data Processing Maintenance,
(4) Equipment Purchases, (5) Equipment Rental, (6) Communications, (7) Applicant
Travel, (8) DDS Travel, (9) Supplies, and (10) Miscellaneous. To test occupancy costs,
we randomly selected 1 month in the FY and reviewed all occupancy expenditures for
that month, the months that preceded and followed the selected month (a total of
3 months were reviewed). Next, we randomly selected 50 transactions from the
9 remaining cost categories. The number of sample items selected from each of the
nine cost categories for each year was based on the proportional distribution of the
costs included in each cost category for that year.




                                         B-4
                                                          Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Report of
Obligation for Social Security Administration
Disability Programs

               Georgia Disability Adjudication Services
                     (As of December 31, 2007)
                               FY 2005
   REPORTING                        UNLIQUIDATED        TOTAL
      ITEMS       DISBURSEMENTS      OBLIGATIONS      OBLIGATIONS
Personnel              $29,784,265              $0        $29,784,265
Medical                 13,319,699          10,263         13,329,962
Indirect                 2,955,450               0          2,955,450
All Other                5,459,859               0          5,459,859
TOTAL                  $51,519,273         $10,263        $51,529,536
                               FY 2006
   REPORTING                        UNLIQUIDATED        TOTAL
      ITEMS       DISBURSEMENTS      OBLIGATIONS      OBLIGATIONS
Personnel              $28,675,955              $0        $28,675,955
Medical                 11,087,805          16,245         11,104,050
Indirect                 3,064,007               0          3,064,007
All Other                5,170,563           3,406          5,173,969
TOTAL                  $47,998,330         $19,651        $48,017,981
                  Appendix D

Agency Comments
                                     SOCIAL SECURITY
MEMORANDUM

Date:    July 24, 2008                                                 Refer To: S2D4
                                                                       (D BHites 21419)
To:      Inspector General

From:    Regional Commissioner
         Atlanta

Subject: Administrative Costs Claimed by the Georgia Disability Adjudication Services
         (A-04-08-18013, Your Memorandum, 7/2/08)--REPLY


         Thank you for the opportunity to comment on the validity of the facts and
         reasonableness of the recommendations presented in your draft audit report
         (A-04-08-18013) of the administrative costs claimed by the Georgia Disability
         Adjudication Services (GA-DAS).

         Overall, we believe that the Office of Inspector General (OIG) audit for fiscal years
         (FYs) 2005 and 2006 was detailed and thorough. We concur with the finding that the
         GA-DAS’s internal controls over the accounting and reporting of their administrative
         costs are generally effective to ensure that costs claimed are allowable and funds are
         being properly drawn. We have the same concerns, though, regarding the systems
         accounting error experienced by the GA-DAS’s parent agency, the Georgia
         Department of Labor (GA-DOL), in the first quarter of fiscal year 2005 that prevented
         them from providing documentation by cost category to support the SSA-4513 for that
         same year. We believe from working with them for many years, however, that this
         statewide problem was an isolated incident, beyond the control of the GA-DAS, and
         that the data eventually provided to support the costs claimed was reasonable and
         consistent with other fiscal information. Please know that SSA will continue to work
         with both the GA-DAS and GA-DOL to monitor system controls.

         We have reviewed the specific recommendations cited in your report regarding
         reconciliation of several cash draws and physical security controls at the GA-DAS’s
         branch offices, and our comments are provided below:

         1. Instruct GA-DAS to review unliquidated obligations totaling $29,914 in FYs
            2005 and 2006, and cancel those that are no longer needed. If GA-DAS
            determines the FY 2006 unliquidated obligations are not needed, GA-DAS
            will need to return $10,227 due to the excess Automated Standard
            Application for Payments (ASAP) cash draws.




                                                 D-1
   While the GA-DAS did not initially adjust unliquidated obligations in the amount of
   $10,263 and $19,651 for FYs 2005 and 2006 respectively (totaling $29,914 as
   noted in the draft report), this action has now been taken on subsequent
   SSA-4513s. In addition, the cash draw for $10,227 in 2006 that exceeded the
   amount shown on an earlier SSA-4513 has been corrected with an adjustment for
   that same amount and documented on a subsequent SSA-4513.

   Please know that SSA had notified both the GA-DAS and GA-DOL regarding
   these discrepancies and had requested the necessary adjustment, which was
   subsequently taken. We will continue to monitor fiscal controls to ensure that all
   records balance and that cash draws do not exceed obligations.

2. Assess the physical security controls of the Thomasville branch office and
   determine what cost-effective improvements should be made to enhance
   physical security.

   We concur with the findings in the draft report regarding the need for additional
   security improvements and controls at the Thomasville office and have discussed
   the issue at length with the GA-DAS Director, Mickey Alberts. During the actual
   audit review, Ms. Alberts explained that she was not taking current action to make
   costly improvements to this office because they were in the process of putting
   together a cost benefit analysis and proposal to relocate the Thomasville office.
   Overall, since the GA-DAS sees the need to move that office due to critical space
   and health issues, in addition to security concerns that would require extensive
   renovations, they are not planning on making security improvements at this time.

   The GA-DOL is supportive of the plan to relocate versus renovate the office, and
   SSA expects to receive the relocation request for approval shortly. Please know,
   though, SSA will work with the GA-DAS to identify any critical, short-term security
   improvements that can be made while the relocation process is moving forward,
   especially since the GA-DAS believes that it will take well over a year to relocate
   that office after final approval for the project is given by both SSA and GA-DOL.

3. Install an Intrusion Detection System (IDS) in the Athens and Savannah
   branch offices.

   While both the Athens and Savannah branch offices of the GA-DAS have secure
   office space, with public access limited to a reception area that has a locked
   doorway between the lobby and work area, we concur with this OIG
   recommendation. No security problems have been reported in either of these
   offices to date due to the lack of an IDS; however, we agree that installation of
   such a system would certainly provide an additional safeguard for claimants’
   personally identifiable information, as well as general 24-hour security.

   Please know that this issue has been discussed with Mickey Alberts, who had her
   staff obtain bids for installation of an IDS in both offices as a result of the OIG
   recommendation. The cost estimates were submitted to SSA last week, and both
   have been approved. Accordingly, the GA-DAS will be installing intrusion
   detection systems in the Athens and Savannah offices, and we expect the action
   to be completed before the end of this fiscal year.



                                        D-2
Please contact me if you have any questions or concerns before our final comments
are made. Staff questions should be referred to Barbara Hites in the Atlanta Region’s
Center for Disability at 404-562-1419 or Karen Killam in the Financial Management
Team at 404-562-5727.



                                  Paul D. Barnes

cc:
Ms. Mickey Alberts, Director, GA-DAS




                                       D-3
                                 Appendix E

Georgia Department of Labor Comments
E-1
E-2
E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1650

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Luis Alberto Ramírez Robert, Program Analyst

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-08-18013.




                                           E-4
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
